No. 20-1693

 

IN THE
Supreme Court of the United States

ERICK ALLEN OSBY,
Petitioner,
v

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

BRIEF OF AMICI CURIAE
AMERICANS FOR PROSPERITY FOUNDATION, THE
NATIONAL ASSOCIATION OF CRIMINAL DEFENSE

LAWYERS, DREAM CORPS JUSTICE, AND THE R
STREET INSTITUTE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,942 words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 30, 2021.

me

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

   
